1
No.

H-/«|

IN THE SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

FEB 1 h 2020
OFFICE OF THE CLERK

Dimitritza H. Toromanova, an individual, pro se
PO Box 19153
Las Vegas, NV 89132-0153
702-467-6972
Petitioner,
v.
SUMMIT REAL ESTATE SERVICES, LLC; et al,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT, CASE NO. 19-15312
PETITION FOR A WRIT OF CERTIORARI

2
I. QUESTIONS PRESENTED FOR REVIEW
Federal Rule of Civil Procedure 60(d), as amended, provides: “This rule does not
limit a court’s power to: (1) entertain an independent action to relieve a party from a
judgment, order, or proceeding

(3) set aside a judgment for fraud on the court.”

The questions presented for review here are:
Did the doctrine of Claim Preclusion as practiced in the Ninth Circuit preclude a
party from asserting the right to file a complaint as an independent action in the United
States district court for relief in the kind of independent action provided by the Federal
Rules of Civil Procedure 60(d), as amended?
Did the appellate panel err by basing its final decision on Federal Rule of Civil
Procedure 60(b) instead of the 2007 amended version of that Rule which created Federal
Rule of Civil Procedure 60(d)?
If the court clerk invites a pro se party on appeal to submit a brief in the court’s
informal format and that pro se party does so, was the appellate panel justified by then
basing their decision at least partly on “matters not specifically and distinctly raised and
argued in the opening brief. See Padgett u. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
2009),

1

a case which did not involve an informal brief.

See Appendix, Memorandum, second page.

3

II. PARTIES TO THE PROCEEDING BELOW
Dimitritza H. Toromanova is the appellant below and plaintiff in the U.S. district court.
Dimitritza H. Toromanova, an individual, Petitioner pro se
PO Box 19153
Las Vegas, NV 89132-0153
702-467-6972
Appellees Caliber Home Loans, Inc., Summit Real Estate Services, LLC, and U.S. Bank,
N.A. as Trustee for LSF9 Master Participation Trust, represented by:
MCGUIREWOODS LLP
1800 CENTURY PARK EAST, 8TH FLOOR
LOS ANGELES, CA 90067-1501
TEL. 310.315.8200
III. BASIS FOR JURISDICTION OF THIS COURT
This Petition is timely, based on the best of my understanding and belief:
1. The unpublished Memorandum decision I am appealing was filed and entered on
“NOV 25 2019” (see attached true copy). By my calendar, the 90th day falls on
Sunday, February 16, 2020. I rely on this court’s Rules 13 and 29, which provides
so long as I send it to this court’s clerk “sent to the Clerk through the United
States Postal Service by first-class mail (including express or priority mail),
postage prepaid, and bears a postmark. . .showing that the document was mailed
on or before the last day for filing. . .”
2. There is no “ order respecting rehearing,” nor “any order granting an extension of
time to file this petition for a writ of certiorari.”

4
3. There is no “date of any order respecting rehearing, and the date and terms of any

order granting an extension of time to file this Petition.”
4. There is no “order granting an extension of time to file this Petition.”
5. There is no cross petition involved in this case.
6. The statutory provision I believe confers on this Court jurisdiction to review on a

writ of certiorari the judgment or order in question is 28 U.S.C. §2101 as well as
this court’s Rule 13.1.
7. The notifications required by Rule 29.4(b) or (c) has been made by mail service of a

copy of this Petition on all Appellees to the appeal before the Ninth Circuit Court
of Appeals, except for “MTC FINANCIAL, INC,” which despite the caption was
never a party to either that proceeding nor the case below.

V. WHY NO CORPORATE DISCLOSURE STATEMENT
I am an individual, not “a nongovernmental corporation shall contain a corporate
disclosure statement” as “required by Rule 29.6”

TABLE OF CONTENTS
I. QUESTIONS PRESENTED - Page 2
II. PARTIES TO THE PROCEEDING BELOW - Page 3
III. BASIS FOR JURISDICTION OF THIS COURT- Page 3
III. BASIS FOR JURISDICTION OF THIS COURT- Page 3
IV. QUESTIONS PRESENTED FOR REVIEW- Page 4
V. STATEMENT OF THE CASE - Page 5
V. WHY NO CORPORATE DISCLOSURE STATEMENT - Page 4
VI. CITATIONS OF REPORTS - Page 6

5

APPENDIX: “MEMORANDUM” - Page 9
TABLE OF AUTHORITIES
U.S. CODE:
28U.S.C. §2101 - Page 4
28 U.S.C. §1291

-Page 6

Federal Rules of Civil Procedure:
60(b) - Pages 1, 4, 5, 6
Caselaw:
Cooter & Gell v. Hartmarx 2 Corp., 496 U.S. 384, 405 (1990) - Page 5
Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U. S. 238, 244 (1944) - Page 5
Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009) - Page 4
Sch.. Dist. No. JJ, Multnomah Cty., Or. v. ACandS, Inc. , 5 F.3d 1255, 1262 (9th Cir.
1993) - Page 4
United States v. Beggerly, 524 US 38, 46 (1998) - Pages 4, 5
V. STATEMENT OF THE CASE
A. I commenced an independent action in the United States Court for the district
of Nevada court pursuant to state statute to determine adverse claims to my real
property.2
B. The district court utterly failed to adjudicate my case on the merits.
A. The court applied the wrong legal standard as it summarily disposed of my case
according to defendants’ dictates.

2

Docket#!

6
B. The court failed to conduct the proceeding as an independent action pursuant
to state statute.
C. The assigned district court judge manifestly disregarded both the actual case
facts and applicable law to a final determination which was manifestly unjust.
VI. CITATIONS OF REPORTS
To the best of my understanding of this Court’s Rule 14(d), I petition this court to
review the unpublished Memorandum I bring to this court (Appendix ) relied on the
following official reports for its Opinion. All on its page 2:
“We have jurisdiction, under 28 U.S.C. §1291. We review for an abuse of discretion,
Sch. Dist. No. JJ, Multnomah Cty., Or. u. ACandS, Inc., 5 F.3d 1255, 1262 (9th Cir.
1993), and we affiml.”
“The district court did not abuse its dliscretion by denying Toromanova's motion
for relief from judgment because Toromanova failed to demonstrate any basis for such
relief. See id. at 1263 (setting forth grounds for relief under Rule 60(b)).”
“We do not consider matters not specifically and distinctly raised and argued in the
opening brief. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).”
The panel used erroneous standards for its review. Perhaps or perhaps not, it cites
only “relief under Rule 60(b)).” My research revealed that Rule was amended in 2007 to
add a subparagraph (d) which included independent actions and “fraud on the court.”
This court has given ample guidance to lower court regarding this Rule, for
example (my added emphasis is in boldface), unfortunately those courts did not follow
what I see as binding precedent:

7
This Court’s comprehensively reviewed Rule 60(b) in its 1998 decision in United
States v. Beggerly [524 US 38], focusing, in particular, on the independent
action for relief from judgment preserved by its "savings clause."
'k'k'k'k'k

“Beggerly held that “[independent actions must, if Rule 60(b) is to be interpreted
as a coherent whole, be reserved for those cases of'injustices which, in certain
instances, are deemed sufficiently gross to demand a departure' from rigid
adherence to the doctrine of res judicata.” Id.”
I would add here all should consider the extent to which “resj udicata” has
been replaced by the preclusion doctrines, which were fiercely briefed in the district court
before appealing to the Ninth Circuit Court of Appeals.
This court explained its legal standards of what it means for a court to "entertain
an independent action" in United States v. Beggerly, 524 US 38, 46 (1998):
“focusing, in particular, on the independent action for relief from
judgment preserved by its "savings clause."
is'k'k'k'k

“Beggerly held that “[independent actions must, if Rule 60(b) is to be
interpreted as a coherent whole, be reserved for those cases of'injustices
which, in certain instances, are deemed sufficiently gross to demand a
departure' from rigid adherence to the doctrine of res judicata.” HazelAtlas Glass Co. v. Hartford-Empire Co., 322 U. S. 238, 244 (1944).
Beggerly, 524 US at 44, gives us:
“This rule does not limit the power of a court to entertain an
independent action to relieve a party from a judgment, order, or
proceeding. . .or to set aside a judgment for fraud upon the court. . .and the
procedure for obtaining any relief from a judgment shall be by motion as
prescribed in these rules or by an independent action.” Fed. Rule Civ. Proc.
60(b).

8

I would add for context, this court’s decision in Cooter & Gell v. Hartmarx 2 Corp.,
496 U.S. 384, 405 (1990) is applicable:
“A court necessarily abuses its discretion if it bases its decision on an
erroneous view of law or clearly erroneous factual findings.”
I submit that is exactly what the lower courts did in this case. Cooter also provides
at 496 U.S. 405:
“An appellate court's review of whether a legal position was reasonable are
plausible enough under the circumstances is unlikely to establish clear
guidelines for lower courts' nor will it clarify the underlying principles of
law. See Pierce, supra, at 560-561.”
VII CONCLUSIONS
I have no doubt this Petition can be viewed as “inartful,” I rely on this court’s
standard “to liberally construe the “inartful pleading” of pro se litigants. ”3
Like the Sacketts, I am an interested party feeling my way through these
proceedings as best as I can.4

Submitted for re-filing with all rights vdserhed on April

clfil/M-

2020.

t
Dimitritza H. Toromanova, Petitioner pro se
3

Boag v. MacDougall, 454 U.S. 364, 365, 70 L. Ed. 2D 551, 102 S. Ct. 700 (1982)(per curiam):“It is
settled law that the allegations of [a pro se litigant's complaint] 'however inartfully pleaded' are held 'to
less stringent standards than formal pleadings drafted by lawyers . . . .'”

4

Sackett. u. Environmental Protection Agency, 132 S.Ct. 1367, 1370 (2012)

